Report No. D-2008-069        March 28, 2008




   Controls Over Army Working Capital Fund
 Inventory Stored by Organizations Other Than
           Defense Logistics Agency
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AR                    Army Regulation
ASL                   Authorized Stockage List
AWCF                  Army Working Capital Fund
CIIC                  Controlled Inventory Item Code
DLA                   Defense Logistics Agency
IAR                   Inventory Adjustment Report
NIIN                  National Item Identification Number
RIC                   Routing Identification Code
SARSS                 Standard Army Retail Supply System
                Department of Defense Office of Inspector General
Report No. D-2008-069                                                     March 28, 2008
   (Project No. D2007-D000FI-0056.000)

      Controls Over Army Working Capital Fund Inventory Stored
        by Organizations Other Than Defense Logistics Agency

                                  Executive Summary

Who Should Read This Report and Why? DoD inventory managers and others who
rely on the accuracy of Army Working Capital Fund inventory should read this report.
The users of this audit report will benefit from the review of the controls over the Army
Working Capital Fund inventory and will gain information that can improve
accountability.

Background. The primary mission of the Army Working Capital Fund is to help the
Army maintain constant readiness by providing supplies, equipment, and ordnance
necessary to support the deployment and sustainment of its forces. Most of the
$17.9 billion in the Army Working Capital Fund inventory as of September 30, 2006,
was stored at Defense Logistics Agency depots. The U.S. Army Materiel Command
reported approximately $2.3 billion of inventory stored at non-Defense Logistics Agency
organizations as of September 27, 2006.

Results. Our overall audit objective was to evaluate the controls over the inventory of
the Army Working Capital Fund stored at other than Defense Logistics Agency
organizations. Specifically, we reviewed physical inventory controls at 6 of the
15 storage activities at Fort Campbell, Kentucky, and Fort Rucker, Alabama.

Effective physical inventories and security measures at the six storage activities resulted
in accurate counts and safeguarded Army Working Capital Fund inventory. We did not
identify any material internal control weaknesses. Inventory accuracy rates exceeded the
Army goal of 95 percent accuracy. However, we identified control weaknesses in the
timeliness of physical inventories, separation of duties, implementation of location audit
programs, and inventory adjustment research.

Although the control weaknesses we identified did not result in significant discrepancies
in the inventory records or in inventory accuracy rates below the Army goal, they could
affect the accuracy of the inventory records through the unauthorized use, disposition, or
loss of inventory. The control weaknesses could also affect the commanders’ ability to
effectively monitor the storage activity performance and to ensure that the reasons for
inventory discrepancies are corrected. The Army Deputy Chief of Staff, G-4 needs to
review and make appropriate changes to inventory guidance and performance measures
as the Army prepares to implement the Global Combat Support System-Army. The
commanders of the storage activities at Fort Campbell and Fort Rucker need to improve
controls over Army Working Capital Fund inventory after first analyzing the costs and
benefits of adjusting existing controls and implementing any new controls. See the
Finding section for the detailed recommendations.
Management Comments. The Army Deputy Chief of Staff, G-4 concurred with
Recommendations 1.a. and 1.b. and agreed to make appropriate changes to inventory
guidance, location surveys, and performance measures. The Army will use the
operational assessment of the Global Combat Support System-Army, Field/Tactical to
solidify the process changes to inventory and location surveys and will update and
change policy to support best business practices. The Army Deputy Chief of Staff, G-4
will also coordinate with the Logistics Support Activity, the Logistics Innovation
Agency, and contractor support to build performance measures from the AJU-180 report
into the Logistics Information Warehouse for use with the My Supply Support Activity
tool. The Army will refine the performance measures as needed.

The commanders of the six storage activities at Fort Campbell and Fort Rucker concurred
with Recommendation 2 and agreed to improve controls as necessary over Army
Working Capital Fund inventory. The commanders of five storage activities agreed to
perform a cost-benefit analysis to compare the option of adjusting existing controls to
implementing new controls.

The Commander of the 597th Ordnance (Maintenance) Company agreed to improve
controls by revising internal procedures and schedules; evaluating which items should be
stocked; increasing training on policies, procedures, and systems; and coordinating with
higher headquarters on periodic checks. The 597th Ordnance (Maintenance) Company
will also implement a quarterly location survey with the assistance of a technical
inspector to verify the serviceability of the stock.

Although not required to comment, the Office of the Assistant Secretary of the Army
(Financial Management and Comptroller) concurred with the draft report. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                     i

Background                                                            1

Objective                                                             3

Review of Internal Controls                                           3

Finding
     Adequacy of Controls Over Army Working Capital Fund Inventory    4

Appendixes
     A. Scope and Methodology                                        17
          Prior Coverage                                             21
     B. Controlled Inventory Item Codes                              22
     C. Tests of Inventory Records                                   23
     D. Statistical Sampling Methodology and Analysis                29
     E. Report Distribution                                          33


Management Comments
     Army Deputy Chief of Staff, G-4                                 35
     160th Special Operations Aviation Regiment (Airborne)           37
     Army Aviation Center Logistics Command                          40
     Installation Management Command, Army Garrison, Fort Campbell   43
     Installation Management Command, Army Garrison, Fort Rucker     45
     597th Ordnance (Maintenance) Company                            48
     Office of the Assistant Secretary (Financial Management and
         Comptroller)                                                50
Background
    The primary mission of the Army Working Capital Fund (AWCF) is to help the
    Army maintain constant readiness by providing supplies, equipment, and
    ordnance necessary to support the deployment and sustainment of its forces. The
    AWCF is a revolving fund, which is replenished by the reimbursements for goods
    and services that are provided by AWCF organizations.

    The Army manages two AWCF activity groups: Industrial Operations and
    Supply Management, Army. Industrial Operations is a consolidation of the
    former Depot Maintenance and Ordnance activity groups. Supply Management,
    Army buys and maintains inventory for sale to Army operating units and other
    DoD customers. The major subordinate commands of the U.S. Army Materiel
    Command manage the AWCF inventory. Most of the $17.9 billion in the AWCF
    inventory as of September 30, 2006, was stored at Defense Logistics Agency
    (DLA) depots. However, as of September 27, 2006, the U.S. Army Materiel
    Command reported approximately $2.3 billion of inventory stored at
    organizations other than DLA. A three-digit Routing Identifier Code (RIC)
    identifies activities within established supply distribution systems, including those
    that store materiel. We visited 6 of the 15 storage activities at Fort Campbell,
    Kentucky, and Fort Rucker, Alabama. Table 1 lists the storage activities that we
    visited, by RIC and installation, and the major command that oversees them.

                           Table 1. Storage Activities Visited
                                                                     Major Command
              RIC               RIC Name              Installation    Responsible
                            Installation Supply
              ADL                                     Ft. Campbell      IMCOM
                              Warehouse-Air
                            Installation Supply
              AW3                                     Ft. Campbell      IMCOM
                            Warehouse-Ground
                           Special Operations
              WD7                                     Ft. Campbell      SOCOM
                           Aviation Warehouse
                          Director of Logistics
              AW8                                      Ft. Rucker       IMCOM
                       Supply and Services Division
                         Aviation Center Logistics
              W0H                                      Ft. Rucker       AMCOM
                         Command Supply Support
                            597th Ordnance
              W66                                      Ft. Rucker      FORSCOM
                         (Maintenance) Company

           AMCOM          Aviation and Missile Life Cycle Management Command
           FORSCOM        Forces Command
           IMCOM          Installation Management Command
           SOCOM          Special Operations Command




                                            1
           Inventory Identification. Each line of inventory has classifications and unique
           identifiers. One classification is the Class of Supply, which is used to divide the
           lines of inventory into identifiable categories of material. The two primary
           classes of supply we reviewed during the audit were Class II (clothing, individual
           equipment, and tentage) and Class IX (repair parts and components). Another
           classification is the Controlled Inventory Item Code (CIIC), which is used to
           designate lines of inventory that are classified, sensitive, or pilferable. Controlled
           lines of inventory must be identified, accounted for, secured, segregated, or
           handled in a special manner to ensure their safety and integrity. Examples of
           controlled lines of inventory include lines with CIICs of C (confidential) or N
           (firearms piece parts and non-lethal firearms). See Appendix B for a list of
           CIICs. An additional identifier is the National Stock Number, which is the
           combined Federal Supply Classification and National Item Identification Number
           (NIIN). A supply condition code classifies each line of inventory in terms of
           readiness for issue and use or identifies action underway to change the status of
           material.

           Integrated Logistics Systems. Storage activities use the Standard Army Retail
           Supply System (SARSS) to manage and control AWCF inventory stock. SARSS
           consists of multiple interrelated subsystems: SARSS-1, SARSS-2AC/2B, and
           SARSS Gateway. SARSS-1 is a real-time inventory control system. Storage
           activities use SARSS-1 to process the receipt, storage, and issue of stock.
           SARSS-2AC/2B is the management module and provides asset visibility and
           allows for the redistribution of items. SARSS Gateway is the interface point with
           the National Level Supply and feeds directly into the Commodity Command
           Standard System and the Logistics Modernization Program accounting systems.

           In addition to the SARSS functions, Army inventory managers at all levels use
           the Integrated Logistics Analysis Program to collect, integrate, and display
           logistics and financial data. Inventory managers can use the Integrated Logistics
           Analysis Program to manage authorized stockage lists (ASLs), 1 check document
           numbers, and query for supply trends.

           The Army will begin implementing the Global Combat Support System-Army in
           September 2007 to transform supply-chain business processes and thus enhance
           logistics support of Army tactical combat operations. The Global Combat
           Support System-Army will replace or integrate various legacy systems, including
           SARSS.

           Inventory Adjustments. SARSS automatically adjusts the accountable record to
           the inventoried quantity when there is a discrepancy between the quantity
           inventoried by personnel and the quantity recorded in SARSS. SARSS generates
           an Inventory Adjustment Report (IAR) when an adjustment to the inventoried
           item results in a gain or loss that exceeds $1,000 or if the adjustment is made to a
           controlled item with certain CIICs. SARSS automatically adjusts the accountable
           record without an IAR for uncontrolled items if the discrepancy between the
           inventoried quantity and the recorded quantity has a value of $1,000 or less.


1
    The ASL is the maximum quantity of an item authorized to be on hand and on order at any time.



                                                     2
           Performance Standards Report. The AJU-180 is a monthly performance report
           generated by SARSS that provides statistical data for assessing the effectiveness
           of all SARSS-1 storage activities. It enables managers at all levels to compare the
           storage activities and determine if any storage activity needs help or guidance.
           The report includes several performance measures, including the inventory
           accuracy rate, inventory adjustment rate, and the location accuracy rate. The
           inventory accuracy rate represents the percentage of lines that storage activity
           personnel physically inventoried that did not result in an IAR. The inventory
           adjustment rate represents the total value of inventory adjustments, excluding
           administrative adjustments, 2 in relation to the value of the ASL. The location
           accuracy rate indicates how well the inventory location records compared with
           the actual physical locations of the assets.


Objective
           Our overall audit objective was to evaluate the controls over the inventory of the
           AWCF stored at organizations other than DLA. Specifically, we reviewed
           physical inventory controls at six storage activities. See Appendix A for a
           discussion of the scope and methodology and for prior coverage related to the
           objective.


Review of Internal Controls
           We identified no material internal control weaknesses at Fort Campbell and Fort
           Rucker. Further, the discrepancies we found in the inventory records were
           insignificant compared to the quantity and value of the inventory reviewed.
           However, improvements could be made in the controls over the timeliness of
           inventories, separation of duties, implementation of location audit programs, and
           inventory adjustment research.




2
    Administrative adjustments are the result of assembly, disassembly, stock numbers or unit-of-issue
    changes, transaction reversals, condition code changes, re-identification, and pseudoreceipts.



                                                       3
                    Adequacy of Controls Over Army
                    Working Capital Fund Inventory
                    Effective physical inventories and security measures at the six storage
                    activities resulted in accurate counts and safeguarded AWCF inventory.
                    The inventory accuracy rates met or exceeded the Army performance goal.
                    However, we identified weaknesses in the timeliness of physical
                    inventories, separation of duties, implementation of location audit
                    programs, and inventory adjustment research. These control weaknesses
                    occurred because:

                        •    personnel did not always follow regulatory guidance or the
                             guidance was not clear,

                        •    staffing issues and contract requirements limited the separation of
                             duties and access to SARSS, and

                        •    personnel did not always correctly identify or provide sufficient
                             documentation to verify the cause of adjustments to the inventory
                             records.

                    Although these control weaknesses did not result in significant inventory
                    discrepancies or in unacceptable inventory accuracy rates for the records
                    that we reviewed, they could affect the accuracy of the inventory records
                    through the unauthorized use, disposition, or loss of inventory. The
                    control weaknesses could also affect the commanders’ ability to
                    effectively monitor storage activity performance and to ensure that the
                    reasons for inventory discrepancies are corrected.


Criteria
           Office of Management and Budget Circular. According to Office of
           Management and Budget Circular A-123, “Management’s Responsibility for
           Internal Control,” December 2004, management is responsible for developing and
           maintaining effective internal controls. Internal controls should be designed to
           provide reasonable assurance regarding prevention, or prompt detection of,
           unauthorized acquisition, use, or disposition of assets. If weaknesses are found,
           management is responsible for redesigning or improving the controls.
           Management should perform a risk assessment that considers the costs and
           benefits of adjusting existing controls or implementing any new controls.

           Army Regulation. Army Regulation (AR) 710-2, “Supply Policy Below the
           National Level,” July 8, 2005, prescribes policy for supply operations below the
           national level. 3 It states that the purpose of a physical inventory is to determine
           the condition, location, and quantity of material on hand; to adjust stock records

3
    The responsible official for AR 710-2 is the Deputy Chief of Staff, G-4.



                                                       4
     to reflect actual quantities; and to determine the correct cause of the
     discrepancies. The regulation requires that storage activity personnel research
     inventory adjustments of controlled items with certain CIICs (see Appendix B)
     and adjustments greater than $1,000 in value. It also requires that research be
     completed within 30 calendar days following completion of the physical
     inventory or the adjustment to the accountable record. The regulation specifies
     that research ends when the cause of the adjustment has been determined or no
     specific cause can be identified. AR 710-2 also requires that each storage activity
     have a location audit program for inventory location, accuracy, and adjustments.

     AR 710-2 establishes inventory management performance goals and states that
     commanders are responsible for ensuring the proper custody, safekeeping, and
     security of Government property. Furthermore, commanders are required to
     ensure that the actions of subordinates contribute to the proper custody, care, use,
     and safekeeping of all property within their command. The regulation also states
     that the accountable officers are the persons officially appointed in writing to
     maintain a formal set of accounting records of inventory. The accountable
     officers are accountable for inventory from the time of receipt at the storage
     activities until the inventory is issued, shipped, or dropped from accountability.


Tests of Inventory Controls
     We evaluated the following controls:

            •   physical security,

            •   physical inventories,

            •   separation of duties,

            •   location audits, and
            •   inventory adjustment research.

     Physical Security
     Each of the six storage activities had a physical security program in place that
     included security measures to safeguard the property and to report any security
     breach or loss of property. As part of its physical security program, each storage
     activity had policies and procedures, such as key control plans and security
     checklists to safeguard AWCF inventory. Each storage activity had also
     implemented physical security devices. For example, RIC W0H had an alarm
     system, security cameras, and identification card access to prevent possible
     security threats.




                                          5
           Physical Inventories
           Controls over the manner in which physical inventories were conducted at the six
           storage activities ensured accurate counts. We observed the physical inventories
           of 224 lines of inventory, verifying an on-hand quantity of 3,413 items with an
           approximate value of $3.7 million. The number of inventories observed at each
           storage activity depended on the number of physical inventories planned by the
           activity or generated by SARSS. During each inventory we observed, we verified
           that storage activity personnel accurately counted the items of inventory. We
           ensured that items in boxes that were not sealed were individually counted. We
           then verified that the quantities counted during these physical inventories matched
           the quantities recorded in SARSS. With one exception, the quantities from the
           inventories that we observed matched the quantities in SARSS. The exception
           had a discrepancy with an absolute value of $6.

           AR 710-2 requires that each line of inventory be physically inventoried at least
           once annually. Controlled items with certain CIICs 4 are to be inventoried
           quarterly. We reviewed the 540 sample lines of inventory from our record-to-
           floor test at Fort Campbell and Fort Rucker to determine whether each line was
           physically inventoried in accordance with AR 710-2 (see Table C-1). Of the 540
           lines of inventory, only 7 lines with an on-hand quantity of 827 items and an
           approximate value of $7 million were not physically inventoried within the time
           periods required by the regulation.

           Separation of Duties
           The Army did not properly separate the duties of storage activity personnel at
           four of six storage activities. According to DoD 4140.1-R, “DoD Supply Chain
           Materiel Management Regulation,” May 2003, storage activities are required to
           assign the duties of receiving, issuing, and posting to separate people. The
           responsible personnel at RICs AW3, AW8, and W66 assigned the duties of
           receiving and issuing to the same personnel. The Contracting Officer
           Representative at RIC ADL, who is also the accountable officer, assigned the
           duties of issuing and posting to the same personnel. The accountable officers of
           these four storage activities cited staffing issues and contract requirements as the
           reasons they had not separated the duties.

           The Army also did not properly restrict SARSS-1 access at any of the six storage
           activities. According to DoD 4140.1-R, storage activities are required to separate
           the file maintenance actions of receiving and issuing to the maximum extent
           possible. The six storage activities allowed the same personnel to perform the file
           maintenance actions of recording the receipt and issue of inventory in SARSS-1.



4
    AR 710-2 states that lines of inventory identified in the Army Master Data File contained on FEDLOG
    with a CIIC of 1-6, 8, 9, N, P, Q, R, C, $, or Y (Appendix B) will be inventoried quarterly, by serial
    number when applicable. All communication security equipment and components assigned accounting
    legend code 1 or 2 must be physically inventoried at least semiannually and inventory results reconciled
    with the Army Communication Security Central Office of Record.



                                                       6
The accountable officers cited staffing issues and contract requirements as the
reasons the system capabilities of storage activity personnel were not properly
restricted.

Location Audits
Personnel at each of the six storage activities stated that they had implemented a
location audit program. However, we were not able to verify that two of the
storage activities had actually performed location surveys. Inconsistencies
existed in the data surveyed, and the location accuracy rate was not always
calculated. Furthermore, the rate was not reported consistently on the
Performance Standards (AJU-180) Reports. The term “location” means the
physical area where inventory items are stored, such as a bin or shelf.

Location Surveys and Reconciliations. The accountable officers of all six
storage activities stated that they had implemented location audit programs;
however, we were able to verify only four activities that had performed location
surveys. AR 710-2 requires that each storage activity have a location audit
program that consists of a location survey followed by a location reconciliation.
A location survey verifies that the physical location of assets agrees with the
recorded location data. Storage activities are required to perform a location
survey of each line of inventory annually. A location reconciliation reconciles the
results of the location survey with the accountable records. It identifies and
corrects situations where items are in location but not on record, on record but not
in location, or other elements of data (other than quantity) that do not match.

We verified that personnel at RIC AW8 used electronic data collection devices to
capture the location survey data and transmit it to SARSS. We also verified that
RICs ADL, AW3, and W66 manually performed location surveys by reviewing
annotated location survey lists. However, RICs W0H and WD7 did not provide
sufficient documentation to verify that location surveys had been performed.
Personnel at these two storage activities stated that they did not retain location
survey documentation because AR 710-2 did not require retention of this
documentation. The accountable officer at RIC W0H has since requested that the
location survey documentation be retained.

Inconsistencies existed between the data surveyed by AW8 personnel, using the
electronic data collection devices, and the data surveyed by personnel at RICs
ADL, AW3, and W66 performing manual location surveys. Specifically, the
personal data collection devices survey the location, condition code, unit of issue,
and national stock number. The location survey list used for manual surveys
includes the following eight data elements: the location, Federal Supply Class,
National Item Identification Number (NIIN), condition code, Controlled
Inventory Item Code (CIIC), special requirements code, unit of issue, and
nomenclature. However, personnel at the three storage activities who performed
manual surveys were inconsistent regarding the data surveyed. Each supply
activity reported that it tested from four to eight of the data elements included on
the manual survey lists. The inconsistent survey methodologies existed because
AR 710-2 does not specify what data elements the location surveys should test.



                                     7
           Location Accuracy Rates. Personnel at five of the six storage activities
           provided location accuracy rates in response to our request. AR 710-2 states that
           the Army performance goal for location accuracy is 98 percent. The location
           accuracy rate is a function of dividing the number of correct locations by the total
           locations surveyed. If storage activity personnel use electronic personal data
           collection devices during the location survey, SARSS will compute the location
           accuracy rate by subtracting the total number of locations changed from the total
           number of locations surveyed, then dividing the number of accurate locations by
           the number of locations surveyed. If personal data collection devices are not
           used, storage activity personnel can print a location survey list from SARSS and
           manually perform a location survey, but the AJU-180 report will not include the
           resulting location accuracy rate.

           Of the five storage activities that provided their most recent location accuracy
           rates in response to our request, RICs ADL, WD7, AW8, and W66 provided rates
           that met the Army performance goal of 98 percent. Personnel from RIC AW3
           reported a rate below 98 percent, but they stated that was probably because
           locations that no longer had stock had not been deleted from SARSS and were
           counted as errors.

           Of the five storage activities that provided location accuracy rates, only RIC AW8
           reported a location accuracy rate on the AJU-180 report. Personnel at RICs ADL,
           AW3, WD7, and W66 stated that they manually performed the location surveys;
           however, the location accuracy rate was not reported on the AJU-180 report.
           Personnel at RIC W0H stated that they also manually performed the location
           surveys, but they did not calculate the rate and, therefore, could not provide us
           with their location accuracy rates.

           Inventory Adjustment Research
           Personnel at the six storage activities correctly identified the cause for
           36 of 47 inventory adjustments made to the accountable records in SARSS. We
           analyzed a judgmental sample of 37 Inventory Adjustment Reports (IARs) with a
           total of 47 adjustments prepared by the personnel at the six storage activities.
           Specifically, we judgmentally selected 25 IARs from January 2006 through
           March 2007. We also analyzed 12 IARs that included adjustments from our
           record-to-floor tests. 5 In general, storage activity personnel promptly completed
           research to determine why adjustments were made, and the approval authorities
           approved the IARs. The only investigation into the potential loss of Government
           property was caused by a data input error that did not result in the physical loss of
           inventory. Table 2 provides the detailed results of our review of the research.




5
    We performed a record-to-floor test by comparing the quantity, location, condition code, unit of issue,
    shelf-life code, and CIIC of a statistical sample of lines of inventory recorded in SARSS to the inventory
    items at the storage locations. We performed this test to determine whether the AWCF inventory
    recorded in SARSS existed and was recorded accurately. The floor-to-record test was the reverse of this
    test and compared the data from the storage location to the inventory records in SARSS.



                                                        8
                       Table 2. Inventory Adjustment Research
                                Fort Campbell             Fort Rucker
                          ADL AW3 WD7 Subtotal       AW8 W0H W66 Subtotal Total
 Total IARs Reviewed       9     8     4        21    4   10    2       16     37
 Untimely Completion       1     4     0         5    0   0     0       0      5
 Lacked Signatures         1     0     0         1    0   1     0       1      2

 Total IAR Adjustments     10    8     6        24    9   12    2       23    47
 Incorrect Cause           0     0     0         0    3   1     1       5     5
 Unverified Cause          0     0     4         4    1   0     0       1     5
 Inconclusive Research     0     0     0         0    0   1     0       1     1



Researching Adjustments. Personnel at three of the six storage activities did not
correctly identify the cause of five inventory adjustments, and personnel at two
storage activities did not consistently provide sufficient supporting documentation
with the IARs for us to verify or determine the causes of five other adjustments.
Personnel at one storage activity reported that the cause of one IAR could not be
determined.

         Incorrect Cause. Personnel at RIC W0H correctly determined the reason
for the gain of seven items on one IAR. However, they incorrectly attributed the
gain of the eighth item (with a value of $9,153) to placing it in storage without
updating the count on the box. The accountable officer later stated that the cause
was most likely due to a miscount of the inventory. Personnel at RIC AW8 did
not correctly identify the cause of three adjustments with a combined value
of $13,356. For example, RIC AW8 personnel reported that one adjustment with
a gain of 10 items was caused by a system problem. However, personnel from the
Corps Theater Automated Data Processing Service Center determined that the
items were not removed from the storage location for shipment before personnel
conducted the inventory, although the quantity had been subtracted from the
inventory in SARSS. Finally, RIC W66 did not identify an appropriate cause on
one IAR for the loss of an item with a value of $3,363. The accountable officer
later stated that the damaged item was a legacy item that had not been requested
in 12 months. The technical inspectors said that the item was being phased out
and had most likely dry-rotted and broken from the opening and closing of the
drawer over the years.

        Unverified Cause. Personnel at RIC AW8 attributed the gain of 13 items
with a value of $237,627 to the same system problem that was supposed to have
caused the gain of the 10 items discussed earlier. However, storage activity
personnel could not document any response from system personnel to confirm
that the problem was system-related. Personnel at RIC WD7 did not provide
sufficient documentation to verify the cause of four adjustments. For example,
we analyzed one IAR with a potential loss of 41 items. RIC WD7 personnel
provided a supply discrepancy report to show that the potential loss of 18 items
with a value of $2,110 occurred because the items were not received by the
storage activity. However, they did not provide documentation to verify or
determine the cause for the potential loss of the other 23 items with a value of


                                       9
$2,670. The accountable officer later stated that the cause was a miscount of
inventory. Personnel at RIC WD7 also did not provide sufficient support for us to
verify the cause for three additional adjustments with a value of $2,938.

       Inconclusive Research. Personnel at RIC W0H reported on one IAR that
exhaustive reviews of document histories, material release orders, and bin ticket
reviews did not explain the gain of one item with a value of $7,376. However, the
accountable officer told us that the gain of one item was due to a system problem.

Timeliness of Reporting. The research to determine the causes for inventory
adjustments was generally completed within 30 days following completion of the
physical inventory or the adjustment to the accountable record; however, we
identified some anomalies. AR 735-5, “Policies and Procedures for Property
Accountability,” February 2005, requires that IARs be forwarded to the approving
authority within 30 days. Accountable officers completed the research for 32 of
the 37 IARs within 30 days. Five of the IARs were not signed by the accountable
officers until 31 to 35 days following the inventories. We also identified one IAR
that was not signed by the accountable officer. Once told, the accountable officer
signed the IAR and stated that this was an oversight. An additional IAR was not
signed by the approval authority. It was part of a group of four related IARs, and
we concluded that this was an oversight by the approval authority.

Investigations. Of the six storage activities, only RIC AW3 reported an
investigation into the potential loss of AWCF inventory from January 2006
through June 2007. AR 735-5 states that the loss or destruction of controlled
inventory items must be investigated in accordance with AR 15-6, “Procedures
for Investigating Officers and Boards of Officers,” October 2006. The
Commander, United States Army Garrison, Fort Campbell, appointed an
investigating officer to conduct an informal investigation under the provisions of
AR 15-6 into the potential loss of pistol barrels and mount assemblies. The
investigating officer determined that a data input error occurred instead of a
physical loss of inventory. The Commander approved the finding by the
investigating officer.

Summary of Inventory Controls
Physical inventories and security at the six storage activities resulted in accurate
counts and safeguarded AWCF inventory. However, our evaluation of the
inventory controls revealed weaknesses in the timeliness of physical inventories,
separation of duties, implementation of location audit programs, and inventory
adjustment research. These control weaknesses occurred because personnel
responsible for operating the storage activities did not consistently follow
AR 710-2 in performing inventories of controlled and uncontrolled items.
Staffing issues and contract requirements limited the feasibility of the separation
of duties required by DoD 4140.1-R and the proper restriction of access to the
SARSS inventory records by personnel. AR 710-2 does not clearly state that
location survey documentation must be retained or identify which elements the
storage activities should test during location surveys. In addition, personnel did
not always correctly identify or provide sufficient documentation to verify the
cause of adjustments to the inventory records.


                                     10
           The Army Deputy Chief of Staff, G-4 needs to review and make appropriate
           changes to inventory guidance and performance measures as the Army proceeds
           toward implementation of the Global Combat Support System-Army. The
           commanders of the storage activities at Fort Campbell and Fort Rucker need to
           improve controls over AWCF inventory. They should first perform a cost-benefit
           analysis to compare the option of adjusting existing controls to implementing new
           controls.


Tests of Inventory Records
           To evaluate the impact of the control weaknesses, we tested the accuracy of the
           data in the inventory records. Specifically, we compared the data in SARSS to
           the inventory items at the storage locations for a statistical sample of inventory
           lines. We also observed the physical condition and security of the items to
           determine whether the items were damaged and whether the items were stored
           securely. Further, we judgmentally selected 88 lines of inventory and compared
           the data from the items at the storage locations to the data recorded in SARSS. 6
           Although we found discrepancies in the SARSS inventory records, the
           discrepancies were insignificant in terms of the quantity and value compared to
           the total inventory at each of the six storage activities, and the inventory accuracy
           rates met or exceeded the Army performance goal of 95 percent. Furthermore,
           the results of the statistical sample used during record-to-floor tests projected an
           inventory accuracy rate of 99.9 percent for the three storage activities visited at
           each installation. Appendix C explains the results of our tests of inventory
           records, and Appendix D explains the methodology used to project the quantity
           discrepancies for the six storage activities.


Performance Measures
           The six storage activities reported high inventory accuracy rates that were
           consistent with the results of our record-to-floor tests. Most of the storage
           activities also reported an inventory adjustment rate that met the Army
           performance goal. Storage activities were required to establish quality control
           programs that included these performance measures. The SARSS-1 system
           tracked these performance measures and reported them on the AJU-180 report.

           Inventory Accuracy Rates. All six storage activities reported inventory
           accuracy rates on the AJU-180 report that met the Army performance goal of 95
           percent. Table 3 presents the 12 month accuracy rate of the six storage activities.




6
    For judgmentally selected inventory items stored at each of the six storage activities, we compared the
    NIIN, location, quantity, condition code, unit of issue, and CIIC to the corresponding information in
    SARSS to determine whether SARSS inventory records were complete and accurate. This is considered
    a floor-to-record test.



                                                      11
                        Table 3. Inventory Accuracy Rates
                                              AJU-180 12-month Accuracy Rate
                                                                    *
                  Storage Activity                     (Percentage)
                    Fort Campbell
                         ADL                                 99.48
                         AW3                                 96.52
                         WD7                                 99.39

                     Fort Rucker
                         AW8                                 98.76
                         W0H                                 99.94
                         W66                                 99.86
          *
           Auditor-calculated rate based on data reported February 2006 through
           January 2007 (Fort Campbell storage activities) and March 2006
           through February 2007 (Fort Rucker storage activities).

During our record-to-floor test, we compared the data in SARSS to the inventory
items for a statistical sample of inventory lines. The IAR discrepancy rate of the
Fort Campbell sample was 2 percent, which equated to an inventory accuracy rate
of 98 percent. We project the error rate for the entire on-hand inventory at the
three selected storage activities at Fort Campbell to be .1 percent (Table D-5),
which equated to an inventory accuracy rate of 99.9 percent. The IAR
discrepancy rate of the Fort Rucker sample was 2.4 percent, which equals an
inventory accuracy rate of 97.6 percent. We project the error rate for the entire
on-hand inventory at the three selected storage activities at Fort Rucker to be .1
percent (Table D-7), which equals an inventory accuracy rate of 99.9 percent.
Based on the 12-month accuracy rate and the projected rate from the
record-to-floor test, each of the six storage activities had inventory accuracy rates
that met or exceeded the Army goal of 95 percent.
Inventory Adjustment Rates. Most of the storage activities also reported an
inventory adjustment rate that met the Army performance goal. Each of the
storage activities reported inventory adjustment rates on the AJU-180 report.
AR 710-2 states that the Army performance goal for the inventory adjustment rate
is 5 percent. Four of the six storage activities that we reviewed met the
performance goal for both FY 2006 and the five months ending February 28,
2007. Table 4 presents the reported inventory adjustment rates.




                                        12
                    Table 4. Reported Inventory Adjustment Rates

                            FY 2006 Adjustment        October 2006 - February 2007
       Storage Activity      Rate (Percentage)        Adjustment Rate (Percentage)

        Fort Campbell
             ADL                          0                         0
             AW3                      62                          37
             WD7                          0                         0

         Fort Rucker
             AW8                     419                            0
             W0H                          2                         0
             W66                          0                         0


RIC AW3 did not meet the Army performance goal for either time period.
RIC AW8 did not meet the Army performance goal for FY 2006. Officials at the
storage activities stated that the adjustment rates may have exceeded the goal
because both storage activities managed a significant amount of inventory that
was not included in the authorized stockage list (ASL) value but was required to
be counted at least annually. According to the SARSS program office, SARSS
calculates the inventory adjustment rate by adding gains and losses resulting from
all inventory counts and dividing this total by the value of the ASL. Therefore,
SARSS may have inflated the rates by including gains and losses on inventory not
included in the ASL. Table 5 provides the ASL values and total on-hand
inventory values.


                       Table 5. ASL and On-hand Inventory Values
                                   FY 2006          FY 2007          Total On-hand
                                            1                2                     3
         Storage Activity         ASL Value        ASL Value        Inventory Value
          Fort Campbell

               ADL               $48,369,991       $45,188,232          $46,912,232
               AW3                  1,001,545        1,738,216           31,808,325
               WD7                  9,639,627       10,532,870            6,879,968

           Fort Rucker
               AW8                    128,443         102,008             5,315,160
               W0H                 70,368,683       59,999,840           76,848,968
               W66                  5,084,208        5,084,208            6,782,507


  1
      As reported on September 30, 2006.
  2
      As reported on February 28, 2007.
  3
      As of December 22, 2006.



                                              13
     According to the SARSS program office, SARSS includes administrative IARs in
     the calculation of the inventory adjustment rate. AR 735-5 states that
     administrative IARs will not be included in the totals used to determine
     the 5 percent cutoff. As a result, SARSS inflated the inventory adjustment rates
     for all storage activities with administrative adjustments by including them in the
     calculation. To improve performance measurements for inventory managers at all
     levels, the Army Deputy Chief of Staff, G-4 needs to review and make
     appropriate changes to the inventory adjustment rate and other performance
     measures reported on the AJU-180 report as the Army proceeds toward
     implementation of the Global Combat Support System-Army.


Establishing Internal Controls
     Although these control weaknesses did not result in significant inventory
     discrepancies or in unacceptable inventory accuracy rates for the records that we
     reviewed, they could affect the accuracy of the inventory records through the
     unauthorized use, disposition, or loss of inventory. The control weaknesses could
     also affect the commanders’ ability to effectively monitor storage activity
     performance and to ensure that the reasons for inventory discrepancies are
     corrected.

     As part of their responsibility for developing and maintaining effective internal
     controls, commanders of the storage activities at Fort Campbell and Fort Rucker
     should continually assess the controls over AWCF inventory. When weaknesses
     are found, the commanders are responsible for redesigning or improving the
     controls. Specific attention should be given to:

            •   ensuring that all controlled and uncontrolled items are inventoried in
                accordance with AR 710-2;

            •   separating the duties of receiving, issuing, and posting inventory, or
                ensuring that compensating controls have been implemented;
            •   separating the file maintenance actions of issuing and receiving
                inventory items, or ensuring that compensating controls have been
                implemented;

            •   ensuring that location accuracy rates are calculated and consistently
                reported to improve the monitoring of the storage activity
                performance; and

            •   improving inventory adjustment research and documentation.

     In determining the appropriate course of action, the commanders should first
     perform a cost-benefit analysis to compare the option of adjusting existing
     controls to implementing new controls.




                                         14
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Army Deputy Chief of Staff, G-4 review and
    make appropriate changes to inventory guidance and performance measures
    as the Army proceeds toward implementation of the Global Combat Support
    System-Army. Specifically,

           a. Review Army Regulation 710-2 related to location audit programs
    and update the guidance to reflect the scope of location surveys, location
    survey documentation requirements, and other changes in the inventory
    processes as a result of the implementation of the Global Combat Support
    System-Army.

    Management Comments. The Army Deputy Chief of Staff, G-4 concurred and
    stated that the Office of the Army Deputy Chief of Staff, G-4 will review and
    make appropriate changes to inventory guidance, location surveys, and
    performance measures. The Army will use the operational assessment of the
    Global Combat Support System-Army, Field/Tactical to solidify the process
    changes to inventory and location surveys realized during the blueprint phase of
    the Enterprise Resource Planning development. As changes are identified, the
    Army Deputy Chief of Staff, G-4 will update or change policy to support best
    business practices.

    Audit Response. Management comments are responsive to the intent of the
    recommendation.

          b. Examine the inventory adjustment rate and other performance
    measures reported on the AJU-180 report to determine whether those
    measures provide the most beneficial performance data for inventory
    managers at all levels.

    Management Comments. The Army Deputy Chief of Staff, G-4 concurred and
    stated that the Office of the Army Deputy Chief of Staff, G-4 will coordinate with
    the Logistics Support Activity, the Logistics Innovation Agency, and contractor
    support to take performance measures from the AJU-180 report and build them
    into the Logistics Information Warehouse to be used with the My Supply Support
    Activity tool. The Army will evaluate the analyses from this business intelligence
    tool and refine the performance measures as needed.

    Audit Response. Management comments are responsive to the intent of the
    recommendation.

    2. We recommend that the commanders of the storage activities at Fort
    Campbell and Fort Rucker improve controls over Army Working Capital
    Fund inventory. In determining the appropriate course of action, the
    commanders should first perform a cost-benefit analysis to compare the
    option of adjusting existing controls to implementing new controls.




                                        15
Management Comments. The commanders of six storage activities at Fort
Campbell and Fort Rucker concurred with the recommendation and agreed to
improve controls as necessary over AWCF inventory. The Commanders of the
160th Special Operations Aviation Regiment (Airborne); the Army Aviation
Center Logistics Command; the Army Garrison, Fort Campbell; and the Army
Garrison, Fort Rucker agreed to perform a cost-benefit analysis to compare the
option of adjusting existing controls to implementing new controls.

The Commander of the 597th Ordnance (Maintenance) Company agreed to
improve controls by revising internal procedures and location survey schedules
and by holding an Authorized Stockage List review board to determine which
items should be stocked. The 597th Ordnance (Maintenance) Company will also
increase training on location maintenance and surveys, inventory procedures, and
related systems, and it will coordinate periodic annual checks with its higher
headquarters. Because of the age of the stock, the 597th Ordnance (Maintenance)
Company will implement a quarterly location survey with the assistance of a
technical inspector to verify the serviceability of the items.

Although not required to comment, the Director for Operations, Support, and
Business Resources, Office of the Assistant Secretary of the Army (Financial
Management and Comptroller) concurred with the draft report and had no further
comments or recommendations.

Audit Response. Management comments are responsive to the intent of the
recommendation.




                                   16
Appendix A. Scope and Methodology
   Scope of Review. We conducted this performance audit from November 2006
   through August 2007 in accordance with generally accepted government auditing
   standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We reviewed and evaluated the inventory controls over a sample of the AWCF
   inventory stored at six non-DLA storage activities located at Fort Campbell,
   Kentucky and Fort Rucker, Alabama. Most of the $17.9 billion in the AWCF
   inventory as of September 30, 2006, was stored at DLA depots. The U.S. Army
   Materiel Command reported approximately $2.3 billion of inventory stored at
   non-DLA organizations as of September 27, 2006. In total, we reviewed 844
   lines of inventory with an on-hand quantity of 30,777 and an approximate value
   of $105.3 million. We performed observations of inventories, record-to-floor
   tests, and floor-to-record tests. Eight lines, valued at $139,062 with on-hand
   quantities of 72, were reviewed during multiple tests. We performed the tests at
   Fort Campbell in January and April 2007. We performed the tests at Fort Rucker
   in February 2007. See Table A-1 for the lines reviewed and Table A-2 for the
   entire on-hand inventory as of December 22, 2006.


                           Table A-1. Selected Storage Activities
                                                                 On-Hand
                     RIC           Inventory Value   Lines       Quantity
                Fort Campbell
                     ADL             $ 29,220,521      160           2,189
                     AW3               23,157,462      108          13,354
                     WD7                3,720,997       59           4,615
                 Subtotal            $ 56,098,980      327          20,158

                 Fort Rucker
                     AW8             $  3,520,545       19             266
                     W0H               39,321,384      300           8,525
                     W66                6,379,981      198           1,828
                 Subtotal            $ 49,221,910      517          10,619

                   Total             $105,320,890      844          30,777


   The Department of Defense Office of Inspector General issued Report
   No. D-2007-009 “Internal Controls Over Inventory Stored at Defense Logistics
   Agency Distribution Depots,” November 1, 2006. Therefore, we did not include
   DLA distribution depots within the scope of this audit. Furthermore, we did not
   review AWCF inventory stored at locations outside of the contiguous United
   States during this audit.


                                         17
Site Selection. We selected the audit sites using analytical procedures. The U.S.
Army Materiel Command provided a report listing the values of AWCF inventory
stored at DLA depots and non-DLA installations. We judgmentally selected the
three non-DLA installations (Fort Hood, Texas; Fort Rucker, Alabama; and Fort
Campbell, Kentucky) with the largest value of on-hand inventory within the
contiguous U.S. as of September 27, 2006. However, based on the results of the
audit tests at Fort Campbell and Fort Rucker, we decided not to visit Fort Hood.

Based on data as of December 22, 2006, we selected 3 of 11 storage activities at
Fort Campbell and 3 of 4 storage activities at Fort Rucker to visit. Specifically,
we chose the top storage activity based on the quantity of on-hand inventory and
the top storage activity based on the value of on-hand inventory. We selected the
third storage activity at each installation based on its position within the top three
of either quantity or value of on-hand inventory. See Table A-2 for the extended
value, lines, and on-hand quantities reported as of December 22, 2006, at the six
selected storage activities.


                      Table A-2. Selected Storage Activities
                                                                 On-Hand
                                                    *
                     RIC          Inventory Value       Lines*   Quantity*

                 Fort Campbell
                     ADL             $46,912,232         1,438     39,113
                     AW3              31,808,325         2,072     56,793
                     WD7               6,879,968         1,534    179,142
                  Subtotal           $85,600,525         5,044    275,048
                  Fort Rucker
                     AW8             $ 5,315,160          361       6,660
                     W0H              76,848,968        16,589    497,778
                     W66               6,782,507          935      13,343
                  Subtotal           $88,946,635        17,885    517,781

                    Total           $174,547,160        22,929    792,829
             *
              As reported on December 22, 2006.

Sample Selection. The Quantitative Methods Directorate, Office of the Deputy
Inspector General for Policy and Oversight, provided a statistical sample of lines
of inventory based on the three selected storage activities at each installation to be
used during record-to-floor testing, during which we compared the data in SARSS
to the inventory items in storage locations. Appendix D explains the
methodology used to select the sample lines of inventory.




                                       18
           Tests of Inventory Controls

                   •    Physical Security. We interviewed responsible officials and observed
                        the physical security measures to determined whether a security
                        program was implemented.

                   •    Physical Inventories. We observed the inventory counts of 224 lines
                        of inventory, valued at about $3.7 million, performed by storage
                        activity personnel, to determine whether the inventory process ensured
                        accurate and reliable counts. We verified whether the quantities from
                        the observed physical inventories matched the quantities recorded in
                        SARSS. We also interviewed the accountable officers and reviewed
                        SARSS system documentation to determine whether the controls over
                        the inventory process ensured that each item was counted in
                        accordance with AR 710-2. In addition, we verified whether the
                        storage activity personnel had performed physical inventories of the
                        record-to-floor sample lines of inventory in a timely manner as
                        required by AR 710-2.

                   •    Separation of Duties. We interviewed the accountable officers and
                        reviewed SARSS system documentation to determine whether the
                        controls over the inventory process ensured proper separation of duties
                        and restricted access to SARSS.

                   •    Location Audits. We interviewed storage activity officials and
                        reviewed the location survey lists from January 2007 through March
                        2007 and the AJU-180 reports from October 2006 through February
                        2007 to determine whether each storage activity had a location audit
                        program and whether the location accuracy rates met the Army
                        performance goal.

                   •    Inventory Adjustment Research. We analyzed a judgmental sample
                        of 37 IARs with a total of 47 adjustments prepared by the storage
                        activity personnel to determine whether the causes of the adjustments
                        were correctly identified. Specifically, we judgmentally selected
                        25 IARs from January 2006 through March 2007. 7 We also analyzed
                        the 12 IARs that included the adjustments from our record-to-floor
                        tests. We reviewed the date that the accountable officers signed the
                        IARs to determine whether the causative research was completed
                        within 30 days. We also reviewed the IARs to determine whether they
                        were approved by the approval authorities. We interviewed the
                        accountable officers to determine whether there had been any
                        investigations into the potential loss, damage, and destruction of
                        Government property from January 2006 through June 2007.


7
    Personnel at RIC W0H stated that they could not locate the signed IARs from January through September
    2006. Although they stated they had unsigned copies of the IARs, we chose to select IARs from FY
    2007 that were signed. In addition, RIC WD7 only provided four IARs in response to our request. We
    later determined that there were numerous additional IARs besides the four IARs provided by RIC WD7;
    however, we chose to evaluate the four IARs because our sample was judgmental.



                                                    19
Performance Measures. We interviewed storage activity officials and reviewed
the Performance Standards (AJU-180) Report from February 2006 through
February 2007 to determine whether their performance met Army performance
goals.

Tests of Inventory Records

       •   Record-To-Floor Tests. We tested the quantity, location, condition
           code, unit of issue, shelf-life code, and CIIC to determine whether the
           AWCF inventory recorded in SARSS existed and was recorded
           accurately. For a statistical sample of 540 lines of inventory with an
           approximate value of $98.6 million, we compared the data from
           SARSS to the inventory items in the storage locations. We also
           observed the physical condition and security of the items to determine
           whether any items were damaged and whether the items were secured.

       •   Floor-to-Record Tests. We judgmentally selected 88 lines of
           inventory with an approximate value of $3.1 million and compared the
           data from the inventory items in storage locations to the data recorded
           in SARSS. We tested the NIIN, location, condition code, quantity,
           unit of issue, and CIIC of the sample lines of inventory to determine
           whether the AWCF inventory was recorded accurately in SARSS.

Use of Computer-Processed Data. We relied on computer-processed data from
SARSS. We did not test the general and application controls of the system.
However, we performed other tests to determine the reliability of the data.
Specifically, we performed observation of inventories, record-to-floor tests, and
floor-to-record tests to determine the accuracy of the inventory records in SARSS.
The review of inventory records in SARSS identified discrepancies. However,
the discrepancies were insignificant in terms of quantity and value compared to
the total inventory at each of the six storage activities. Furthermore, the results of
the statistical sample used during record-to-floor testing projected an inventory
accuracy rate of 99.9 percent for the three storage activities visited at each
installation.

Use of Technical Assistance. The Quantitative Methods Directorate provided
technical assistance throughout the sample selection and the projection process.
Quantitative Methods Directorate personnel provided a sample of lines of
inventory to test for both Fort Campbell and Fort Rucker in support of the
record-to-floor tests we performed. They also provided a projection of quantity
discrepancies and associated values based on the results of the completed sample.
See Appendix D for a detailed description of the assistance provided by the
Quantitative Methods Directorate.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage on the DoD Financial Management and Supply Chain
Management high-risk areas.




                                     20
Prior Coverage
     During the last 5 years, the DoD IG issued one report discussing the storage of
     AWCF inventory. Unrestricted DoD IG reports can be accessed at
     http://www.dodig.mil/audit/reports.

DoD IG
     DoD IG Report No. D-2007-009, “Internal Controls Over Inventory Stored at
     Defense Logistics Agency Distribution Depots,” November 1, 2006




                                         21
Appendix B. Controlled Inventory Item Codes
   AR 710-2 requires that research be performed when adjusting lines of inventory
   with a CIIC of 1-6, 8, 9, N, P, Q, R, $, or Y (night vision devices and navigation
   systems). Furthermore, lines of inventory with a CIIC of 1-6, 8, 9, N, P, Q, R, C,
   $, or Y will be inventoried quarterly, by serial number when applicable.

    CIIC

     1     Highest Sensitivity (Category I) - Non-nuclear missiles and
           rockets in a ready-to-fire configuration and explosive rounds for
           non-nuclear missiles and rockets.
     2     High Sensitivity (Category II) - Arms, ammunition, and
           explosives.
     3     Moderate Sensitivity (Category III) - Arms, ammunition, and
           explosives.
     4     Low Sensitivity (Category IV) - Arms, ammunition, and
           explosives.
     5     Highest Sensitivity (Category I) - Arms, ammunition, and
           explosives with a physical security classification of Secret.
     6     Highest Sensitivity (Category I) - Arms, ammunition, and
           explosives with a physical security classification of Confidential.
     8     High Sensitivity (Category II) - Arms, ammunition, and
           explosives with a physical security classification of Confidential.
     9     A controlled cryptographic item.
     C     Confidential.
     N     Firearms piece parts and non-lethal firearms.
     P     Ammunition and explosives.
     Q     A drug or other controlled substance designated as a Schedule III,
           IV, or V item, in accordance with the Controlled Substance Act of
           1970. Other sensitive items requiring limited access storage.
     R     Precious metals, a drug or other controlled substance designated
           as a Schedule I or II item, in accordance with the Controlled
           Substance Act of 1970. Other selected sensitive items requiring
           storage in a vault or safe.
     $     Nuclear Weapon Use Control ground equipment which is CIIC
           unclassified but may require special controls.
     Y     Communication/electronic equipment and parts.




                                       22
Appendix C. Tests of Inventory Records

   Record-to-Floor Tests
   The AWCF inventory recorded in SARSS physically existed and was generally
   recorded accurately in SARSS at the six storage activities. We examined a
   statistical sample of 540 lines of inventory at Fort Campbell and Fort Rucker.
   Appendix A explains how we chose the audit sites and sample lines of inventory.
   The sample lines of inventory had an on-hand quantity of 23,027 and an
   approximate value of $98.6 million as of when we performed the tests at each
   storage activity. Table C-1 provides a breakdown of the sample lines of inventory
   reviewed at the six storage activities.



                          Table C-1. Sample Lines Reviewed
                                               On-hand    Inventory Value
                         RIC          Lines    Quantity     ($ millions)
                      Fort Campbell
                         ADL           128       1,392         $26.9
                         AW3            83      12,008          22.9
                         WD7            39       2,538           3.6
                      Subtotal         250      15,938         $53.4
                      Fort Rucker
                         AW8             9        187          $ 3.5
                         W0H           256       6,660          38.2
                         W66            25         242           3.5
                      Subtotal         290       7,089         $45.2
                        Total          540      23,027         $98.6




   We identified 57 discrepancies, which we categorized in one or more of the
   following areas: quantity, location, and other (unit of issue, shelf-life code, CIIC,
   physical condition, or security). Table C-2 identifies the discrepancies with the
   sample lines of inventory by storage activity.




                                        23
                         Table C-2. Record-to-Floor Discrepancies
                                    Fort Campbell              Fort Rucker
                              ADL AW3 WD7 Subtotal        AW8 W0H W66 Subtotal     Total
Lines Reviewed                128   83    39        250    9   256   25      290    540
Quantity Discrepancy           2     6     1         9     0    13    2       15     24
   IAR Adjustment              1     4     0         5     0     5    2       7      12
   Non-IAR Adjustment          1     2     1         4     0     8    0       8      12
Location Discrepancy           6    11    1         18     1    4     0       5     23
Unit of Issue Discrepancy      0     0     0         0     0    0     0       0      0
Shelf-Life Code Discrepancy    1    0     0          1     0    0     0       0      1
CIIC Discrepancy               0     2     0         2     0    0     3       3      5
Condition Discrepancy          0     0     0         0     0    1     2       3      3
Lines not Properly Secured     0     1    0          1     0    0     0       0      1


       Quantity Discrepancy. Of the 540 sample lines of inventory, 24 had the
       incorrect quantity recorded in SARSS. The 24 quantity discrepancies had an
       absolute value of $304,306.

               Fort Campbell. Only 9 of the 250 sample lines at the 3 storage activities
       at Fort Campbell had an incorrect quantity recorded in SARSS. Of the nine
       sample lines with quantity discrepancies, five resulted in IARs, which had an
       absolute value of $158,015. The remaining four discrepancies had an absolute
       value of $247.

               Fort Rucker. Only 15 of the 290 sample lines at the 3 storage activities
       at Fort Rucker had the incorrect quantity recorded in SARSS. Of the 15 sample
       lines with quantity discrepancies, 7 resulted in IARs, which had an absolute value
       of $145,101. The remaining eight discrepancies had an absolute value of $943.

       The research performed by personnel at the six storage activities to determine the
       causes for inventory adjustments indicated that the quantity discrepancies were
       caused by data input errors in SARSS, shipment of incorrect quantities, or
       processing errors. Personnel also reported on one IAR that exhaustive reviews
       did not identify the cause for one discrepancy. In addition, the research for one
       discrepancy did not identify an appropriate cause for the damage to an item that is
       being phased out of the Army inventory. However, the IAR showed that the
       damaged item was removed from storage.

       Projection. Based on the results of the record-to-floor test, we were able to make
       projections on the quantity discrepancies for the storage activities we visited.
       Table C-3 provides the projection for the six storage activities visited. See
       Appendix D for a discussion of the methodology used to project the quantity
       discrepancies for the six storage activities visited.




                                               24
                                      Table C-3. Projections
                                                                         1                      1
                                                         Fort Campbell           Fort Rucker
    IAR Discrepancy Rate (percent)2                             0.1                       0.1
    Non-IAR Discrepancy Rate (percent)                          3.8                       8.0
       Total Discrepancy Rate (percent)                         3.9                       8.1

    IAR Discrepancy Quantity                                      6                       16
    Non-IAR Discrepancy Quantity                                192                  1,435
       Total Discrepancies                                      198                  1,451

    IAR Discrepancy Absolute Value                           $169,034              $193,641
    Non-IAR Discrepancy Absolute Value                          2,118                 53,683
       Total Discrepancy Absolute Value                      $171,153              $247,325

1
    Data taken from Tables D-4 through D-7 in Appendix D.
2
    IAR discrepancy rate was used to compute the inventory accuracy rate. A 0.1 percent
     IAR discrepancy rate equates to a 99.9 percent inventory accuracy rate.


         Fort Campbell. We project that we would have identified 198 lines
(3.9 percent) with a quantity discrepancy. Of the projected 198 quantity
discrepancies, only 6 lines (0.1 percent of the total number of lines) would have
resulted in IARs with an absolute value of $169,034. The IAR absolute value
would have represented 0.2 percent of the total inventory value of all lines at the
three storage activities we reviewed at Fort Campbell. The remaining 192
discrepancies (3.8 percent) would have had an absolute value of $2,118 and
would have represented less than 0.1 percent of the combined inventory value of
all lines at the three storage activities we reviewed at Fort Campbell. See Tables
D-4 and D-5 for the Fort Campbell projections.
         Fort Rucker. We project that we would have identified 1,451 lines
(8.1 percent) with a quantity discrepancy. Of the projected 1,451 quantity
discrepancies, only 16 lines (less than 0.1 percent of the total number of lines)
would have resulted in IARs with an absolute value of $193,641. The IAR
absolute value would have represented 0.2 percent of the total inventory value of
all lines at the three storage activities we reviewed at Fort Rucker. The remaining
1,435 discrepancies (8.0 percent) would have had an absolute value of $53,683
and would have represented less than 0.1 percent of the total inventory value of
all lines at the three storage activities we reviewed at Fort Rucker. See Tables D-
6 and D-7 for the Fort Rucker projections.

        Projected Accuracy Rate. Based on the results of the projections, the
projected value of the quantity discrepancies at the six storage activities we
visited would have been insignificant in comparison to the total inventory value
reviewed. The results of the statistical sample used during record-to-floor tests
projected an inventory accuracy rate of 99.9 percent for the three storage
activities visited at each installation.


                                             25
Location Discrepancy. We found 18 of the 250 sample lines of inventory at Fort
Campbell and 5 of the 290 sample lines at Fort Rucker had a location
discrepancy. Specifically, SARSS did not record all storage locations for 10 of
the 18 sample lines at Fort Campbell and 4 of the 5 sample lines at Fort Rucker.
The locations for 8 sample lines were not correctly recorded in SARSS because
storage activity personnel had improperly recorded the location in SARSS. The
remaining item was not stored at the correct location. As a result of our review,
personnel at each storage activity corrected the location discrepancies.

Other Tests. Four of the 250 sample lines of inventory at Fort Campbell and 6 of
the 290 at Fort Rucker had discrepancies in the shelf-life code, CIIC, or issues
with the physical condition or security of the items. Most of the discrepancies
were caused by improperly coded data fields in SARSS or the data were changed
in SARSS but not on the item or location labels. Personnel at the storage
activities concurred with the discrepancies and adjusted the records in SARSS or
corrected the discrepancies on the item or location labels. The number of
discrepancies identified in these other areas was insignificant compared to the
total sample lines reviewed.

Floor-to-Record Tests
With the primary exception of two unrecorded locations, the lines of inventory
that we tested were recorded in SARSS and were accurate at the six storage
activities. We examined a judgmental sample of 88 lines of inventory at Fort
Campbell and Fort Rucker that had an on-hand quantity of 4,409 and approximate
value of $3.1 million. Table C-4 provides a breakdown of the lines of inventory
we reviewed at the six storage activities.

                              Table C-4. Lines Reviewed
            Storage Activity     Lines    On-hand Quantity Inventory Value
              Fort Campbell
                  ADL             20             539           $1,471,651
                  AW3             17           1,221                219,878
                  WD7             16           2,019                 96,869
               Subtotal           53           3,779           $1,788,398

               Fort Rucker
                  AW8              8              76           $     55,578
                  W0H             16             493               1,058,896
                  W66             11              61                201,267
               Subtotal           35             630           $1,315,741
                 Total            88           4,409           $3,104,139




                                         26
      We identified 12 discrepancies in 6 of the 88 lines of inventory. We categorized
      the discrepancies in one or more of the following areas: unrecorded location;
      quantity discrepancy; or discrepancies with the condition code, unit of issue, or
      CIIC. Table C-5 identifies the discrepancies with the lines of inventory by
      storage activity.


                       Table C-5. Floor-to-Record Discrepancies

                                  Fort Campbell              Fort Rucker
                             ADL AW3 WD7 Subtotal      AW8 W0H W66 Subtotal       Total
Lines Reviewed               20   17    16        53    8   16 11    35             88
Unrecorded Location           0    2     0        2     0   0   0     0             2
Quantity Discrepancy         0     3     0        3     0   1   2     3              6
Condition Code Discrepancy   0    3     0         3     0   0   0     0              3
Unit of Issue Discrepancy    0     1     0        1     0   0   0     0              1
CIIC Discrepancy             0     0     0        0     0   0   0     0              0




      Unrecorded Location. Two of the 88 lines of inventory did not have a location
      recorded in SARSS. Each of the 35 lines of inventory at Fort Rucker, and 51 of
      the 53 lines of inventory at Fort Campbell had a recorded location. The other two
      lines of inventory were recorded in SARSS; however, SARSS did not record the
      location or quantity. Personnel at RIC AW3 determined that the cause for one of
      the unrecorded locations was that the inventory for one order from April 2005 had
      not been picked for shipment. As a result, the quantity in SARSS was reduced to
      zero and the location was deleted, but the inventory remained at the location. The
      storage activity personnel were not able to determine the cause for the other
      unrecorded location. The storage activity personnel added the two locations and a
      quantity of one to each of the two lines of inventory in SARSS to correct the
      discrepancies.

      Quantity Discrepancy. Six of the 88 lines of inventory, including the two lines
      with the unrecorded locations, had a quantity discrepancy in SARSS. Three of
      the 53 lines of inventory at Fort Campbell and 3 of the 35 lines of inventory at
      Fort Rucker had a quantity discrepancy. The absolute value of quantity
      discrepancies at Fort Campbell was $20,484. The discrepancies were a result of
      the two unrecorded locations and the storage of different lines of inventory in the
      same location. The absolute value of quantity discrepancies at Fort Rucker was
      $2,450. The discrepancies were caused by the storage of different lines of
      inventory in the same location and the miscounting of lines of inventory. The
      storage activity personnel at Fort Campbell and Fort Rucker added the missing
      locations, moved the different lines of inventory to separate locations, and agreed
      to adjust the discrepancies due to the miscounted lines of inventory.

      Other Tests. Only 4 of the 88 total lines of inventory had a discrepancy in the
      condition code, unit of issue, or CIIC. Four of the 53 lines of inventory at Fort
      Campbell had discrepancies in these areas. The causes of the discrepancies were



                                             27
an unrecorded data field in SARSS, storage of different lines of inventory in the
same location, and improper coding of the data field on the item or location label.
The storage activities took the necessary actions to correct the discrepancies.




                                    28
Appendix D. Statistical Sampling Methodology
            and Analysis

Quantitative Plan
The purpose of the quantitative plan was to estimate the error rate and dollar
misstatements in AWCF inventory stored at other than DLA organizations.

Population. The population files we obtained from the Integrated Logistics Analysis
Program contained inventory data for Fort Campbell and Fort Rucker. We further
reduced the population by looking only at inventory items that had a Routing Identifier
Code (RIC) of ADL, AW3, or WD7 at Fort Campbell and a RIC of W0H, W66, or AW8
at Fort Rucker.

Measures and Parameters. The measure of “correct” or “incorrect” was used to
classify the attribute items audited. The “over” or “under” dollar amount was the
variable measure. We used a 95 percent confidence level for the statistical estimate.

Sample Plan
The Quantitative Methods Directorate developed a stratified sample design for Fort
Campbell and Fort Rucker. The two locations and three RICs from each location were
judgmentally selected by the audit team. The first stratification was based on the CIIC
which designated the lines of inventory with controlled and uncontrolled inventory items.
The Quantitative Methods Directorate further stratified within each of the controlled and
uncontrolled stratum based on the reported dollar value in the On-Hand Extended Price
variable. The Quantitative Methods Directorate also randomized within each stratum and
selected the sample items using simple random without replacement.


Two items totaling $40.67 from the $0-$25,000 Controlled stratum at Fort Rucker were
inadvertently excluded from the population. The population does not include these two
items. See Table D-1 for a list of the items excluded. Tables D-2 and D-3 detail the
sample stratification at Fort Campbell and Fort Rucker.

                 Table D-1. Line Items Excluded from Fort Rucker Sample1
                                                              On-hand
                        RIC                    NIIN        Extended Price        CIIC
                        AW8                 01-446-6617       $ 8.00              S
                        W0H                 01-462-8845        32.67              1
  1
      Data as of December 22, 2006.




                                            29
                            Table D-2. Fort Campbell Sample Stratification1
                                    Controlled Item Sample Population
                                                                                         2              2
Stratum (dollars)                      Category      Lines     Lines              Sample      Population
$100,000-$10,000,000                 Uncontrolled      65         65            $41,484,294   $41,484,294
$25,000-$100,000                     Uncontrolled      35        101              1,763,972     5,119,459
$0-$25,000                           Uncontrolled      40       3770                 73,656     6,101,467
$25,000-$10,000,000                   Controlled       70        143             14,878,917    30,035,964
$0-$25,000                            Controlled       40        965                134,979     2,859,340
                                                      250      5,044            $58,335,818   $85,600,524
1
  Population and sample included storage activities AW3, ADL, and WD7.
2
    Data as of December 22, 2006.




                             Table D-3. Fort Rucker Sample Stratification1
                                    Controlled Item Sample Population
                                                                                         2              2
Stratum (dollars)                      Category      Lines     Lines              Sample      Population
Top 40                               Uncontrolled      40          40           $15,526,159   $15,526,159
$25,000-$3,000,000                   Uncontrolled      50         276             2,852,433    14,874,705
$0-$25,000                           Uncontrolled      80      16,336                79,533    15,428,963
Top 40                                Controlled       40          40            25,787,741    25,787,741
$25,000-$3,000,000                    Controlled       50         180             3,182,100    12,325,727
$0-$25,000                            Controlled       30        1011               114,469     5,003,300
                                                      290      17,883           $47,542,435   $88,946,595
1
  Population and sample included storage activities W0H, W66, and AW8.
2
    Data as of December 22, 2006.



Statistical Analysis and Interpretation
Fort Campbell. Based on the audit results, which included the absolute value of IAR
adjustments, non-IAR adjustments, and the combined absolute value of IAR and non-
IAR adjustments, the Quantitative Methods Directorate calculated the statistical
projections in Tables D-4 and D-5.

                     Table D-4. Fort Campbell Discrepancy Value Projections1
                                  (95-Percent Confidence Interval)
                                                         Lower              Point
                                                              2                    2             2
                                                        Bound             Estimate     Upper Bound
           IAR Discrepancies                            $138,806           $169,034      $199,261
           Non-IAR Discrepancies                                -              2,118         4,453
           IAR & Non-IAR Discrepancies                   140,753            171,153       201,553
          1
              Projection includes storage activities AW3, ADL, and WD7.
          2
              Stated in absolute value.


                                                      30
We are 95 percent confident that the absolute value of IAR adjustments is between
$138,806 and $199,261, the absolute value of non-IAR adjustments is not more
than $4,453, and the combined absolute value of IAR and non-IAR adjustments is
between $140,753 and $201,553.

                   Table D-5. Fort Campbell Discrepancy Rate Projections1
                               (95-Percent Confidence Interval)
                                                                            Point      Upper
                                                                           Estimate    Bound
       IAR Discrepancy Rate                                                 0.1%        1.7%
       IAR Discrepancy Quantity2                                              6          86

       Non-IAR Discrepancy Rate                                              3.8%       9.6%
                                        2
       Non-IAR Discrepancy Quantity                                          192         485

       IAR & Non-IAR Discrepancy Rate                                        3.9%       9.7%
                                               2
       IAR & Non-IAR Discrepancy Quantity                                    198         491
       1
           Includes storage activities AW3, ADL, and WD7.
       2
           Lines of inventory.

We are 95 percent confident that the IAR discrepancy rate and discrepancy quantity is
not more than 1.7 percent and 86 lines of inventory, respectively; the non-IAR
discrepancy rate and discrepancy quantity is not more than 9.6 percent and 485 lines of
inventory, respectively; and the combined IAR and non-IAR discrepancy rate and
discrepancy quantity is not more than 9.7 percent and 491 lines of inventory,
respectively.

Fort Rucker. Based on the audit results which included the absolute value of IAR
adjustments, non-IAR adjustments, and the combined absolute value of IAR and non-
IAR adjustments, the Quantitative Methods Directorate calculated the statistical
projections in Tables D-6 and D-7.

                   Table D-6. Fort Rucker Discrepancy Value Projections1
                               (95-Percent Confidence Interval)
                                                      Lower              Point
                                                           2                    2              2
                                                     Bound             Estimate     Upper Bound
       IAR Discrepancies                             $114,890           $193,641      $272,392
       Non-IAR Discrepancies                                 -             53,683      125,693
       IAR & Non-IAR Discrepancies                    121,905            247,325       372,744
       1
           Projection includes storage activities W0H, W66, and AW8.
       2
           Stated in absolute value.




                                                   31
We are 95 percent confident that the absolute value of IAR adjustments is between
$114,890 and $272,392, the absolute value of non-IAR adjustments is not more
than $125,693, and the combined absolute value of IAR and non-IAR adjustments is
between $121,905 and $372,744.

                    Table D-7. Fort Rucker Discrepancy Rate Projections1
                               (95-Percent Confidence Interval)
                                                            Lower    Point     Upper
                                                            Bound   Estimate   Bound
       IAR Discrepancy Rate                                   -      0.1%       1.0%
       IAR Discrepancy Quantity2                              -       16        185

       Non-IAR Discrepancy Rate                             1.2%     8.0%      14.8%
                                       2
       Non-IAR Discrepancy Quantity                          219     1,435     2,651

       IAR & Non-IAR Discrepancy Rate                       1.3%     8.1%      14.9%
                                              2
       IAR & Non-IAR Discrepancy Quantity                    235     1,451     2,667
       1
           Includes storage activities W0H, W66, and AW8.
       2
           Lines of inventory.

We are 95 percent confident that the IAR discrepancy rate and discrepancy quantity is
not more than 1.0 percent and 185 lines of inventory, respectively; the non-IAR
discrepancy rate and discrepancy quantity is between 1.2 and 14.8 percent and between
219 and 2,651, respectively; and the combined IAR and non-IAR discrepancy rate and
discrepancy quantity is between 1.3 and 14.9 percent and between 235 and 2,667,
respectively.




                                                  32
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Army Deputy Chief of Staff, G-4 (Logistics)
Auditor General, Department of the Army

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          33
Army Deputy Chief of Staff, G-4 Comments




                     35
36
160th Special Operations Aviation Regiment
(Airborne) Comments




                      37
38
39
Army Aviation Center Logistics Command
Comments




                    40
41
42
Installation Management Command, Army
Garrison, Fort Campbell Comments




                    43
44
Installation Management Command, Army
Garrison, Fort Rucker Comments




                    45
46
47
597th Ordnance (Maintenance) Company
Comments




                    48
49
Office of the Assistant Secretary (Financial
Management and Comptroller) Comments




                        50
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Carmelo G. Ventimiglia
Stephen C. Borushko
Craig W. Zimmerman
Dale E. Coy
Nathan R. Witter
Melissa J. Humerickhouse
Virginia M. Peyla
Michael G. Jarvis
Lusk F. Penn
James Hartman
E. Ellen Kleiman-Redden
Ann Thompson
